4/19/2016

Cardholder Agreement
Home

Online Banking

Internet Banking
Username:

Privacy Policy
Click Here
Make Your Loan Payment*
Click Here
*New Look for Make a Payment
now live!
Apply for a Home
Equity Line of Credit
Click Here
To view a list of our
NMLS originators
Click Here

Personal

Contact Us

Business

Locations

Loans

About Us

Careers

Customer Education

In the News

Investor Relations

Investar Bank Cardholder Agreement ‐ Effective: March 1, 2015
General Terms: This Cardholder Agreement applies to your VISA® credit card account with Investar Bank, Baton Rouge, LA
(the “Account”). “We,” “us” and “our” mean Investar Bank and its representatives, successors and assigns. “You” and “your”
mean each person (as an individual) and all persons (as a group) applying and responsible for paying the Account and on
whose behalf we issue credit cards for Account access (each, a “Card”). An “Authorized User” is a person you authorize or
allow to use a Card or the Account, but who did not apply for the Account. Your “Agreement” with us includes and
incorporates your Account application; this Cardholder Agreement; other disclosures we provide with the Cardholder
Agreement (“Account Opening Disclosure”), with the Card (“Card Carrier Disclosure”), or on a periodic Account billing
statement (a “Statement”); and any future changes we make to any of these as permitted or required by law. Other
capitalized terms in this Cardholder Agreement are generally defined with their first use. When the Cardholder Agreement
says we “may” take an action, this means we are authorized to take that action in our sole discretion, subject only to any
limitations or requirements established by law. Your Agreement with us becomes effective the first time any of you or any
Authorized User signs, activates or uses a Card or otherwise uses the Account in any way. Read the Agreement carefully and
keep it with your Account records. This Agreement is governed by federal law and, to the extent not preempted by federal
law, by Louisiana law, including but not limited to La. Rev. Stat. Ann. §6:548.
Your Promises To Us: You promise to do everything the Agreement requires of you, so long as your Account has an unpaid
balance, remains open to future transactions, or both. If there is more than one of you, you agree your obligations to us are
on a “joint and several” and a “solidary” basis. Each of you and all of you promise, individually and together, to pay us all
amounts due on your Account, now and in the future. This promise applies any time the Account or a Card is used by any of
you or by any Authorized User, including when used for mail, telephone or Internet transactions. The amounts you must pay
include amounts due for all Account transactions in each balance category, plus all Interest Charges, Fees, and other costs
and expenses required by the Agreement. “Interest Charges” are the charges we add to your Account based on the periodic
interest rates we apply to your Account balances. “Fees” are other charges and fees we add to your Account that are not
based on a periodic interest rate.
Balance Categories. A “Purchase” means the property, rights, goods and services you purchase or otherwise obtain directly
from a merchant or others by using the Account or a Card. A “Balance Transfer” means any balance we allow you to transfer
to the Account from an account owed to another creditor, after you use any written, electronic or telephonic device or
method we approve for this purpose. We treat Balance Transfers made with your Account as a type of Purchase. The term
“Purchase,” when used in this Cardholder Agreement, will include both Purchases and Balance Transfers, unless we state
otherwise. A “Cash Advance” means a loan you obtain from us using a Card, convenience checks, or other devices or methods
we approve for Account access, including transactions made through a teller or Automated Teller Machine (ATM). A “Cash
Advance” includes use of a Card or the Account to obtain an item we consider a cash equivalent, such as wire transfers,
travelers’ checks, money orders, foreign currency, or stored value load. A “Promotional Offer” means the transactions added
to your Account with unique pricing, grace periods or other promotional terms we may disclose from time to time. If you
accept any Promotional Offer, the previously disclosed terms in the Agreement still apply, except as modified by the express
terms of the Promotional Offer. We reserve the right to decide whether any Account transaction is a Purchase, Balance
Transfer, Cash Advance or Promotional Offer, and our decision will be final.
Authorized Users: You must make sure each Authorized User uses the Account and a Card in a manner that complies with the
Agreement. You agree that we are authorized to discuss the Account with an Authorized User. An Authorized User who uses
your Account is not liable to us for obligations incurred by you or by other Authorized Users, but we may require an
Authorized User to pay his or her own Account charges if you do not.
Use of the Account and Card: You and any Authorized User may use the Account and a Card for Purchases, Cash Advances,
Balance Transfers and Promotional Offers, as permitted by the Agreement and applicable law. The Cards must be signed
immediately after you receive them. Notify us at once if any Card, convenience check or other Account access device is lost or
stolen or you suspect they are being used without your permission. All Cards are our property and you must return or destroy
any or all of them if we ask. You must take reasonable steps to prevent the unauthorized use of the Account and Cards. If you
allow someone else to use your Card, you are responsible for their Account transactions and related Interest Charges and Fees
until you notify us of your decision to cancel his or her right to use a Card or the Account. You must contact us if you want to
cancel your Account or any Card or Cards. We may suspend or close the Account or reject specific Account transactions at any
time, for any reason, and without advance notice to you, unless otherwise required by law. From time to time, Account
services may be unavailable for reasons beyond our control, such as system failures, fires, floods, natural disasters and other
unpredictable events. If this happens, we will not be responsible or liable to you or any Authorized User. You must not use the
Account or Card for any purpose prohibited by law or this Agreement. You agree not to use or allow use of the Account or any
Card for gambling purposes, whether online or otherwise. If you or an Authorized User use the Account or a Card for any
purpose prohibited by law or this Agreement, you must still pay us for these Account transactions and all related Interest
Charges and Fees.
Credit Limit: We will disclose your Account credit limits at Account opening and in your Statements. We may assign different
credit limits to the balance categories of your Account (for example, by assigning a Cash Advance limit that is lower than the
limit for Purchases or the overall Account credit limit). We may increase, decrease, or restrict the credit limit that applies to
any balance category or to the Account itself at any time and for any reason, subject only to any notices required by law. This
will not affect your duty to pay us. You must keep track of your Account balances and available credit and you must not allow
your Account to exceed any assigned credit limit. We may honor transactions above your credit limits, but, if we do, this will
not increase your assigned credit limits and you must immediately pay us the full amount due for these overlimit transactions.

https://www.investarbank.com/Personal/CreditCards/CardholderAgreement.aspx

1/4

4/19/2016

Cardholder Agreement
Statements; Minimum Payments: The last day of the billing period shown on a Statement is the “Statement Closing Date.”
The “Payment Due Date” shown on each Statement is the date your Account payment is due (a date at least 25 days after the
previous Statement Closing Date). The “New Balance” is the full unpaid balance of your Account as of a Statement Closing
Date, including the billed and unpaid amounts due for all of your Account transactions plus Interest Charges and Fees. As of
each Statement Closing Date, we will determine the Total Minimum Payment due for your Account and disclose it on the
Statement for that billing period. You must pay each month’s Total Minimum Payment by the Payment Due Date shown on the
Statement for that billing period. The Total Minimum Payment will include all past due and overlimit amounts for your
Account, plus the greater of: (A) $50.00 or any lesser amount that would pay the New Balance in full; or (B) 3.0% of the New
Balance, rounded up to the nearest dollar. You may pay more than the Total Minimum Payment or pay the total New Balance
at any time, without penalty. You must pay at least the Total Minimum Payment due after each billing period, regardless of
the amount of the payment made after the previous billing period. We choose which balances to pay with the Total Minimum
Payment. We apply payments above the Total Minimum Payment to balances with the highest Annual Percentage Rates first,
unless otherwise required by law.
Making Payments; Disputed Payments: Your payments to us must be made in U.S. dollars from a U.S. deposit account and
must otherwise be acceptable to us. We may charge you any additional costs we incur to convert payments not made in U.S.
dollars or from a U.S. deposit account. Do not mail cash payments to us and do not make Account payments with funds
borrowed from your Account or your other credit accounts with us. You agree to follow the payment requirements we disclose
on Statements from time to time. We may accept late payments, partial payments, or any payments marked as “payment in
full” or in settlement of a dispute without losing any of our rights under this Agreement. Your communications to us about
a disputed debt, including those made on or with a payment, must be sent to us at the following address: Investar
Bank, Attn: CCS Chargeback/Dispute Dept. TA‐24, P.O. Box 30495, Tampa, FL 33630‐3495.
Grace Period: We will not charge you Interest Charges on Purchases (including Balance Transfers) if you pay your New
Balance in full by the Payment Due Date after each billing period. This is called a grace period. There is no grace period for
Cash Advances. You pay Interest Charges on Cash Advances from the date of the Cash Advance or the first day of the billing
period it is posted to your Account, whichever is later, until we are paid in full for all outstanding Cash Advances.
Calculation of Periodic Rates: Your Account Opening Disclosure states each Annual Percentage Rate (“APR”) that applies to
your balances when we open your Account and identifies which APRs may vary with each billing period. The Monthly Periodic
Rate we apply in each billing period is 1/12th of the corresponding APR, rounded to the nearest ten thousandth of a
percentage point. The Card Carrier Disclosure states each APR and corresponding Monthly Periodic Rate that applies when we
open your Account, along with other information about how we calculate variable rates. The Prime Rate we use to determine
the variable APRs for each billing period is the U.S. Prime Rate published in The Wall Street Journal on the first day of the
prior month (or, if the first day is not a business day, on the preceding business day). Your APR may change each billing
period based on published changes in the Prime Rate. Your Total Minimum Payment and the number of required Account
payments may increase if the APR increases. If The Wall Street Journal no longer publishes a prime rate, we will use a similar
published rate that we choose.
How We Calculate the Balance Subject to Interest Charges: We use a method called “Average Daily Balance (including new
transactions).” With this method, we calculate the Interest Charges for each Account balance (for example, Purchases, Cash
Advances) by multiplying the Monthly Periodic Rate for that balance by the “average daily balance” of that balance. That
gives us the total Interest Charges for that balance for that billing period. We calculate the “average daily balance” for each
type of Account balance. We do this by starting with the beginning amount of that balance for each day. We add any new
charges for that day, excluding any unpaid Interest Charges and Fees, and subtract any payments or credits. This gives us the
“daily balance” for each type of Account balance. We calculate the “average daily balance” for each balance by adding all
the daily balances for each day in the billing period and then dividing by the total number of days in the billing period.
Fees: We may charge and you must pay the following Fees to the extent allowed by law:
1. CASH ADVANCE TRANSACTION FEE: We will charge a $5.00 Cash Advance Fee (a Finance Charge) to your Account for each
Cash Advance.
2. ANNUAL FEE: Your Account Opening Disclosure states whether an Annual Fee applies to your Account. If an Annual Fee
applies, we will charge it to your Account on or near each anniversary of your Account opening date, beginning with the first
anniversary of your Account opening.
3. RETURNED PAYMENT FEE: If a check or other Account payment is returned to us unpaid, we will charge a $15.00 Returned
Payment Fee to your Account as allowed by law.
4. LATE PAYMENT FEE: If we do not receive at least your Total Minimum Payment within five (5) days after its Payment Due
Date, we will charge a $15.00 Late Payment Fee to your Account as allowed by law.
5. FOREIGN TRANSACTION FEE: A “Foreign Transaction” is a Cash Advance or Purchase made in a country other than the
United States. If a Foreign Transaction is converted into U.S. dollars from a foreign currency, the exchange rate used is
either: (a) a rate selected by Visa from the range of rates available in the wholesale currency markets for the applicable
central processing date (a rate that may vary from the one that Visa itself receives), plus or minus any adjustment we may
determine; or (b) the government‐mandated rate in effect for the applicable central processing date, plus or minus any
adjustment we may determine. The conversion may occur after the date of the Foreign Transaction and the conversion rate
may differ from the rate of exchange in effect at the time of the Foreign Transaction. You agree to pay the converted
amount to us in U.S. dollars. If a currency conversion occurs for a Foreign Transaction, you must pay a Foreign Transaction
Fee equal to 1% of the U.S. dollar amount of the Foreign Transaction charged to your Account. If the Foreign Transaction was
transacted in U.S. dollars, you must pay a Foreign Transaction Fee equal to 0.8% of the U.S. dollar amount of the Foreign
Transaction charged to your Account.
6. RESEARCH FEE: You must pay $3.00 for each copy of a sales slip and $4.00 for each duplicate copy of a Statement you
request, unless prohibited by applicable law. We will not impose these fees if you have notified us in writing of a potential
billing error and you request these items in connection with the billing error.
Default: Subject to any limitations of applicable law, we may declare your Account to be in default at any time if: (i) you fail
to pay us an Account payment when it is due; (ii) borrow more than permitted by your Account credit limits; (iii) any
statement you made to us in connection with the Account application was materially false or misleading; or (iv) you breach

https://www.investarbank.com/Personal/CreditCards/CardholderAgreement.aspx

2/4

4/19/2016

Cardholder Agreement
any other promise or duty you owe under this Agreement. Following an event of default, we may require that you
immediately pay us the entire amount due for your Account and/or suspend or cancel your Account privileges, after we give
any notice and wait any time period that may be required by applicable law. After an event of default and subject to any
limitations of applicable law, you agree to pay all of the reasonable costs we incur in collecting your Account balance,
including reasonable attorney’s fees in an amount not to exceed twenty‐five percent (25%) of the unpaid debt after default,
regardless of whether we file suit against you.
Suspension, Cancellation, Revocation: We may suspend or cancel Account privileges and the right for you or any Authorized
User to use a Card at any time, for any reason, and without giving you advance notice, subject only to any notices or
limitations expressly required by law. You agree that any such action on our part will not cancel or affect your duty to pay
everything you owe in connection with your Account as required by the Agreement. If we revoke a Card, you must return it to
us at our request. You may not use a Card after it has expired or been revoked. You must surrender an expired or revoked
Card if a merchant or financial institution asks you to do so. If you ask us to cancel your Account, but you or an Authorized
User continues to use the Account after the date of cancellation, we will consider such use as your request to have the
Account reinstated. We may then reinstate your Account and bill you accordingly.
Waiver; Severability: If we do not exercise any of our rights under this Agreement or we waive a right on any one occasion,
you agree this does not mean we are waiving our rights on any other occasion. If any of this Agreement conflicts with
applicable law, you and we agree that the law will control and this Agreement will be considered changed to the extent
needed to comply with law. If any part of this Agreement is determined by a court of valid jurisdiction to be invalid, the
remainder of this Agreement will remain in effect.
Change of Billing Address – Notices: You must notify us immediately of any change in your billing address. Any notice given
by us will be given to you when it is deposited in the United States Mail, postage prepaid, addressed to you at the latest
billing address shown on our records.
Consent for Communications: By providing at any time the number of your land line, cell phone or other wireless device and
your email address, you expressly consent and agree that we and any of our affiliates, agents, service providers or assignees
may call you, using an automatic telephone dialing system or otherwise; may leave you a voice, prerecorded, or artificial
voice message; and may send you a text, e‐mail or other electronic message for any purpose related to the servicing or
collection of any Account, Card or loan you may receive from us or for other informational purposes related to your Account
(each a “Communication”). You agree that we and any of our affiliates, agents, service providers or assignees may call or
text you at any telephone number associated with your accounts that you provide to us now or in the future, including cellular
telephone numbers, and that we may send an e‐mail to any email address associated with your accounts that you provide to
us now or in the future. To cancel your consent for use of automatic telephone dialing systems and prerecorded or artificial
voice messages, please write to us at Investar Bank, 10500 Coursey Blvd., 3rd Floor Loan Operations, Baton Rouge, LA 70816.
You also agree that we and any of our affiliates, agents, service providers or assignees may include your personal information
in a Communication. We will not charge you for a Communication, but your service provider may. You agree that we and our
agents and service providers may monitor and record telephone calls about your Account to assure service quality and for
other legitimate business reasons. In addition, you understand and agree we and any of our affiliates, agents, service
providers or assignees may always communicate with you in any manner permissible by law that does not require your prior
consent.
Transfer and Assignment; Change of Rates, Fees, and Terms: You may not transfer your Account or any of your rights and
duties under this Agreement. Any such transfer will be void. We may transfer your Account and any of our rights and duties
under this Agreement at any time. We may also change the rates, fees, and terms of your Account and this Agreement at any
time, after we give you any notice and wait any time period that may be required by law. We will, if required by law or at
our discretion, allow you to reject certain changes and close your Account to future transactions. If this happens, you must
still pay all of the Interest Charges, Fees and the unpaid Account balances as required by this Agreement.
To Cardholders in the United States. Your Billing Rights – Keep This Notice for Future Use. This notice contains
important information about your rights and our responsibilities under the Fair Credit Billing Act. What To Do If You Find a
Mistake on Your Statement. If you think there is an error on your statement, write to us at: Investar Bank, Attn:
Chargeback/Dispute Dept. TA‐24, P.O. Box 30495, Tampa, FL 33630‐3495. In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automatic payment is scheduled, if you want to stop payment on the amount you think is
wrong. You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate
any potential errors and you may have to pay the amount in question. What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct. While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.

https://www.investarbank.com/Personal/CreditCards/CardholderAgreement.aspx

3/4

4/19/2016

Cardholder Agreement
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within ten (10) days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us. If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct. Your Rights If You Are Dissatisfied With Your Credit Card Purchases If
you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith
to correct the problem with merchant, you may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we made to you, or if we own the company that sold you the goods or services.)
2. You must have used you credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at: Investar Bank, Attn: Chargeback/Dispute Dept. TA‐24, P.O. Box 30495, Tampa, FL 33630‐
3495 While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and do not pay, we may report you as delinquent.
Helpful Links

Calculators

https://www.investarbank.com/Personal/CreditCards/CardholderAgreement.aspx

Disclaimers

4/4

